     Statement of Gregory H. Friedman

             Inspector General

         U.S. Department of Energy



                 Before the

Subcommittee on Investigations and Oversight

   Committee on Science and Technology

       U.S. House of Representatives




                                 FOR RELEASE ON DELIVERY
                                                 10:00 AM
                                             March 19, 2009
Mr. Chairman and Members of the Subcommittee:



I appreciate the opportunity to testify today on accountability and transparency issues related to

the American Recovery and Reinvestment Act of 2009 (Recovery Act). My testimony focuses

on the efforts of my office to provide effective oversight of Recovery Act funds at the

Department of Energy, which will receive approximately $40 billion for various science, energy,

and environmental programs and initiatives. Furthermore, based on the Recovery Act and

previously approved programs, the Department has been authorized to make or guarantee loans

totaling up to $127 billion for innovative technologies as well as auto industry advancements.



The Recovery Act will undoubtedly have a significant impact on the operations and activities of

the Department and, in turn, the Office of Inspector General. Under the Recovery Act, the

Federal Government hopes to stimulate the economy in the shortest timeframe possible, while

fostering an unprecedented level of accountability, oversight, and transparency. The passage of

this legislation makes this a transformative time for the Department of Energy, particularly in the

area of scientific discovery and innovation.



Consistent with the objectives outlined in the Recovery Act, my office has developed a strategy

to provide the most effective oversight possible given our available resources. Before discussing

the specifics of the oversight strategy, I would like to outline a few fundamental principles that I

believe must guide the Department’s management of Recovery Act funds.



   •   Prevention and Detection: In terms of oversight, it is important to note that simply

       detecting problems after the fact is not satisfactory. As the Department works to

                                                                                                     1
       establish safeguards and internal controls for managing Recovery Act funds, the

       prevention of fraud, waste, and abuse must be a top priority.

   •   Expediency and Accountability: A principle feature of the Recovery Act involves the

       allocation of funds with all possible speed as a means of stimulating the economy. While

       expeditious action is an important goal, the Department must be mindful of the fact that

       accountability must be maintained over funds.

   •   Management Responsibility: Responsible program managers and contracting officials

       must exercise effective program management as a primary tool to ensure Recovery Act

       success. Inspector General oversight activities supplement, rather than supplant, program

       execution.



Office of Inspector General Oversight Strategy

My staff and I are committed to evaluating the actions the Department takes to ensure that

Recovery Act funds are used both efficiently and effectively. Our risk-based strategy for

achieving these goals includes the following steps:



   •   Evaluate the internal control structure for the most significant programs receiving

       Recovery Act funds: To ensure effective oversight, my office will review the internal

       control structure and management of Department programs, beginning with those

       receiving in excess of $500 million in funding under the Recovery Act. To provide

       immediate feedback on areas needing improvement, “real time” reviews will be initiated

       as controls are established, and policies and procedures are developed.

   •   Evaluate the effectiveness of the Department’s distribution of funds to key external

       recipients: The vast majority of funds provided to the Department will be distributed

                                                                                                  2
    under various procurement instruments to contractors, State and local governments,

    educational institutions, and non-profit organizations. After reviewing the Department’s

    internal control structure, my office will evaluate the controls established by the primary

    recipients over the use of funds.

•   Examine the use of funds through transaction testing, utilizing a risk-based approach:

    My office will conduct transaction testing at the recipient or end-user level to fully

    explore the effectiveness and efficiency of Recovery Act projects.

•   Evaluate Department metrics to gauge program success: We will evaluate established

    goals and metrics to ensure that they address Recovery Act objectives. We will also test

    specific performance and economic information, including reported performance in the

    critical area of job creation, to determine whether objectives are being met.

•   Provide fraud awareness briefings throughout the Department complex: On a regular

    basis, the Office of Inspector General will provide fraud awareness briefings to groups of

    Federal employees, contractor officials, and fund recipients. These briefings aid

    significantly in preventing fraud, waste and abuse by heightening managers’ awareness of

    fraud indicators and familiarizing officials with our operations.

•   Enhance existing relationships with Federal, State, and local prosecutors and law

    enforcement agencies: These relationships are critical to establishing effective networks

    for identifying areas that are most vulnerable to fraud, waste, and abuse as well as

    bringing to justice those who would defraud the government.

•   Expand Hotline capabilities: The Office of Inspector General maintains a Hotline to

    facilitate the reporting of allegations of fraud, waste, abuse, or mismanagement in

    Department of Energy programs or operations. On an annual basis, the Hotline receives

    approximately 1,300 complaints. We anticipate receiving an additional 500 Hotline

                                                                                                  3
       complaints each year that pertain to Recovery Act funds. In the coming months, we will

       expand our Hotline capabilities, as necessary, to accommodate these complaints.

   •   Enhance our program to process and report on whistleblower retaliation complaints, to

       respond to new requirements under the Recovery Act: The Office of Inspector General

       will direct additional resources to review retaliation complaints relating to Recovery Act

       programs.

   •   Participate actively as a member of the Recovery Accountability and Transparency

       Board: As outlined in the Recovery Act, I will serve with nine other Inspectors General

       on the Recovery Accountability and Transparency Board. This work will complement

       my regular duties as Department of Energy Inspector General. I look forward to working

       closely with my colleagues to help ensure that Recovery Act funds are spent efficiently

       and effectively throughout government.



Areas Requiring Special Attention

The strategy outlined above takes into account management challenges that we have reported on

over time as well as new issues that we expect as a result of the sudden influx of substantial

additional Department funding.



For example, for over a decade, the Office of Inspector General has identified “contract

administration” as one of the most significant management challenges facing the Department.

We have issued numerous reports on a wide variety of contract administration and project

management deficiencies. Given the Department’s almost total reliance on contractors to carry

out its mission, a commitment to effective contract administration will be of vital importance as

the unprecedented flow of funds begins under the Recovery Act.

                                                                                                    4
The Office of Inspector General has also reported on the maturity of the internal control structure

of the Department’s loan guarantee program, questioning whether it was adequately staffed to

support its goals and objectives. For example, prior to the signing of the Recovery Act, we

reported that staffing levels were not adequate to, among other things, monitor disbursed loans

and complete credit underwriting for applicants. We noted that the Department has stated its

intention to augment the staffing levels. We think this is a positive step that should be pursued

aggressively as the process of reviewing and approving loan guarantee applications proceeds.



As implementation of the Recovery Act continues, all parties should recognize that the potential

risk of fraud increases dramatically when large blocks of funds are quickly disbursed. Our

experience in the investigative arena has demonstrated that even during periods of normal

operation, the Department is vulnerable to the misuse of funds, submission of false or fictitious

data, employee conflicts of interest, and other related wrongdoing.



Finally, given the magnitude of the Recovery Act, successfully infusing funds into existing

Department programs will be a significant challenge. For example, the Office of Electricity

Delivery and Energy Reliability, which will continue to lead efforts to modernize the electric

grid, had a budget of approximately $138 million in Fiscal Year 2008. Under the Recovery Act,

this Office will receive $4.5 billion, the bulk of which will be used for electricity delivery and

energy reliability activities. Such an expansive increase in funding in a short timeframe carries

with it certain vulnerabilities and operational risks.



These are just a few examples of areas relating to Recovery Act programs and operations that we

believe will require special attention by Department management. Utilizing the risk-based

                                                                                                     5
oversight approach previously outlined, in conjunction with experience gleaned in part from

existing management challenges, we will continue our efforts in these, as well as other, critical

areas to aid the Department in the successful implementation of the Recovery Act.



Accomplishments to Date

While continuing to focus attention on our customary responsibilities, in recent weeks my office

has accelerated efforts to provide proactive oversight of Recovery Act funds and programs. To

date, my office has:



       •   Developed a comprehensive oversight strategy, as outlined above.

       •   Completed and will shortly issue a “lessons learned” report based on concerns

           identified in prior work. The report will provide the Department with a resource as it

           works to establish a framework to manage the unprecedented amount of funding

           under the Recovery Act.

       •   Initiated a review of the Office of Energy Efficiency and Renewable Energy’s

           implementation of the Recovery Act.

       •   Launched a proactive effort to communicate with Federal and State prosecutors on

           strategies for pursuing allegations of fraud.

       •   Completed and will shortly issue a report on staffing concerns relating to the

           Department’s acquisition workforce and its impact on implementation of the

           Recovery Act.

       •   Delivered several fraud awareness briefings to various Departmental elements,

           including the Office of the Chief Financial Officer, the Office of Energy Efficiency

           and Renewable Energy, the Office of Science, the Office of Environmental

                                                                                                    6
           Management, and the Bonneville Power Administration. We have numerous other

           briefings scheduled in the near future.

       •   Initiated discussions with the State Auditors in several states to establish collaborative

           efforts, most notably in the area of weatherization, to follow the expenditure of

           Recovery Act funds to project completion.

       •   Commenced outreach efforts with the Government Accountability Office to discuss

           interaction and communication as it relates to the Recovery Act.

       •   Applied additional resources for receiving and reviewing whistleblower retaliation

           complaints associated with Recovery Act programs, as outlined in the legislation.



Conclusion

We appreciate the significance of the Department of Energy’s participation in the Recovery Act

and the potential short and long term implications for the U.S. economy. We are mindful, as

well, of the special responsibilities of the Office of Inspector General to help ensure transparency

and accountability, all in the interest of the American taxpayers. We have already initiated

efforts in this arena and will continue to work diligently to meet these challenges. We look

forward to keeping this Subcommittee and others in Congress apprised of the results of our work.



Mr. Chairman, this concludes my statement, and I would be pleased to answer any questions that

the Subcommittee may have.




                                                                                                   7
